           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review on the                                     Date:    September 30, 2013
           Single Audit of the Transportation District
           Commission of Hampton Roads
           Report No. QC-2013-143


  From:    George E. Banks, IV                                                         Reply to
                                                                                       Attn. of:   JA-20
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region III


           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the Transportation District Commission of Hampton Roads (the
           District). This report presents the results of our Quality Control Review (QCR) on
           DOT’s major grant programs included in the single audit of the District performed
           by Dixon Hughes Goodman LLP (DHG) for the fiscal year ending June 30, 2012.
           During this period, the District expended over $62 million from DOT grant
           programs, as shown on the attached Schedule of Expenditures of Federal Awards.
           DHG determined that DOT’s major program was the Federal Transit Cluster.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           DHG rendered an unqualified opinion on the District’s financial statements and
           compliance with DOT’s major program requirements for the Federal Transit
           Cluster. However, DHG questioned approximately $1,135,000 affecting the
           Federal Transit Cluster, and made recommendations to correct internal control and
           compliance deficiencies that affect the Federal Transit Administration. 1

           1
            We advised FTA of these deficiencies in a separate memorandum. The single audit report issued by DHG is available
           upon request to singleauditrequest@oig.dot.gov.
                                                                                 2


SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied
with the Single Audit Act of 1984, as amended, and OMB Circular A-133; and
(2) the extent to which we could rely on the auditors’ work on DOT’s major
program, the Federal Transit Cluster.

RESULTS

We determined that DHG’s audit work was Acceptable with Deficiencies, and
therefore, generally met the requirements of the Single Audit Act, OMB Circular
A-133, and DOT’s major program. We found nothing to indicate that DHG’s
opinion on DOT’s major program was inappropriate or unreliable.

While the deficiencies we identified in the audit documentation need to be
corrected in future audits, we determined that the deficiencies did not alter the
overall results of the audit report. The deficiencies relate to:

Activities Allowed or Unallowed and Allowable Costs/Cost Principles - DHG
needs to improve its audit documentation related to its compliance testing of
Activities Allowed or Unallowed and Allowable Costs/Cost Principles to clarify
how it determined that activities and costs were allowable.

Cash Management - DHG needs to improve its audit documentation related to its
compliance testing of cash management to clearly show that the dates of vendor
payments preceded requests for reimbursement.

Matching Requirements - DHG needs to improve its audit documentation related
to its compliance testing of grant agreement matching requirements to clarify how
it determined that specific matching requirements were met.

In addition, we identified the following deficiencies as part of our desk review of
the Single Audit Report:

• The Summary Schedule of Prior Audit Findings was not correctly labeled and
  did not include the actual status of the prior year’s finding.
• The Data Collection Form, Part III, Question 8, did not identify DOT as having
  a current or prior year audit finding related to direct funding.
• The Schedule of Expenditures of Federal Awards summary line was
  incorrectly labeled as “Total DOT Expenditures” instead of “Total Federal
  Expenditures.”
                                                                                 3


DHG and the District agreed to revise the Summary Schedule of Prior Audit
Findings, the Data Collection Form, and the Schedule of Expenditures of Federal
Awards, and file them with the Federal Audit Clearinghouse.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Chief Financial Officer, Transportation District Commission of Hampton
    Roads
